Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




 FDA’S CLEARANCE OF MEDICAL
  DEVICES THROUGH THE 510(K)
           PROCESS




                    Daniel R. Levinson
                     Inspector General

                     September 2013
                     OEI-04-10-00480
EXECUTIVE SUMMARY: FDA’S CLEARANCE OF MEDICAL DEVICES
THROUGH THE 510(k) PROCESS
OEI-04-10-00480

WHY WE DID THIS STUDY

The Food and Drug Administration’s (FDA) premarket notification (i.e., 510(k)) process
is a faster and less stringent method to obtain clearance to market medical devices than
the Premarket Approval (PMA) process. FDA is required to classify devices by the level
of control needed to provide reasonable assurance of device safety and effectiveness (i.e.,
Class I, II, or III). Most Class III devices must be approved through the PMA process,
although some continue to be cleared through the 510(k) process using regulatory
categories of devices (“Class III preamendment device types”). The Safe Medical
Devices Act of 1990 requires FDA to either reclassify Class III preamendment device
types as Class II or I or keep them as Class III and require a PMA review.

HOW WE DID THIS STUDY

We determined whether FDA finished classifying the Class III preamendment device
types used to clear devices through the 510(k) process, the number of Class III devices
cleared using the 510(k) process, and the number of times each Class III preamendment
device type was used to clear those devices through the 510(k) process from April 9,
2009, to July 9, 2012. We reviewed documents in files submitted to us electronically by
FDA for Class III and Class II devices cleared through the 510(k) process in 2010. We
did not determine whether FDA’s clearance of the devices was appropriate.

WHAT WE FOUND

FDA has not finished classifying all types of Class III devices cleared through the 510(k)
process, as required by Congress in 1990. As a result, FDA continues to clear some
Class III devices through the 510(k) process. Additionally, FDA did not consistently
document the review of Class III and Class II devices cleared through the 510(k) process
in 2010, according to our review of the files provided electronically by FDA. Further,
FDA did not provide complete administrative files during our data collection, thereby
demonstrating deficiencies in its filing system.

WHAT WE RECOMMEND

FDA agreed with both of our recommendations to: (1) in accordance with the law, finish
classifying all types of Class III preamendment devices used to clear devices through the
510(k) process and (2) improve its maintenance of administrative files for devices and
continue to implement new policies on how to compile an administrative file.                   
TABLE OF CONTENTS
Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................9 

Findings......................................................................................................13 

           FDA has not finished classifying all types of Class III 

           preamendment devices, as required by Congress in 1990 .............13 

           FDA did not consistently document the review of devices
           cleared through the 510(k) process in 2010 ...................................15 

Conclusion and Recommendations ............................................................17 

          Agency Comments and Office of Inspector General Response ......19 

Appendixes ................................................................................................20 

           A: Documents That the Office of Inspector General Determined 

           Should Reasonably Be Included in the Administrative Files for 

           Devices Cleared Through the 510(k) Process ................................20 

           B: Type of Class III Preamendment Device, Number of                     

           Times Each Class III Preamendment Device Type Was Used To

           Clear 263 Unique Devices Through the 510(k) Process From

           April 9, 2009, Through July 9, 2012, and 515 Program

           Initiative Steps Completed as of July 9, 2012................................22 

           C: Agency Comments ...................................................................23 

Acknowledgments......................................................................................27 

                OBJECTIVES
                1.	 To determine whether the Food and Drug Administration (FDA) has
                     finished classifying the remaining types of Class III preamendment
                     devices that are currently used to review devices through the
                     Premarket Notification (i.e., 510(k)) process.1
                2.	 To determine whether FDA consistently documented the review of
                     devices cleared through the 510(k) process in 2010.

                BACKGROUND
                The 510(k) process is a faster and less stringent method to obtain FDA
                clearance to market devices than the Premarket Approval (PMA) process.
                The Medical Device Amendments of 1976 (MDA) to the FFDCA
                established three regulatory classes for types of medical devices, on the
                basis of the level of control needed to ensure the safety and effectiveness
                of the device (i.e., Classes I, II, and III).2, 3 In recent years, there has been
                congressional and media interest in the 510(k) process, and consumer
                groups have criticized that process and FDA’s use of it to review certain
                Class III devices.
                Medical Device Approvals and Clearances
                A medical device is defined as “an instrument, apparatus, implement…or
                other similar or related article, including any component, part, or
                accessory, which is…intended for use in the diagnosis of disease or other
                conditions, or in the cure, mitigation, treatment, or prevention of
                disease….”4 Devices vary in complexity and application, ranging from
                simple tongue depressors to complex pacemakers. FDA’s Center for




                1
                 The 510(k) process is based on section 510(k) of the Federal Food, Drug, and Cosmetic
                Act (FFDCA) (21 U.S.C. § 360(k)). The applicable regulations can be found at 21 CFR
                Part 807, Subpart E.
                2
                  P.L. 94-295 (May 28, 1976). The device classes are described at section 513(a)(1) of the
                FFDCA (21 U.S.C. § 360c(a)(1)). After the enactment of the MDA, any new device
                (referred to as a “postamendment device”) that is not substantially equivalent to a
                predicate device (a device already being legally marketed) is automatically classified as a
                Class III device. The sponsor must either submit a PMA application or petition FDA to
                reclassify the device as Class I or II. Section 513(f)(1) (21 U.S.C. § 360c(f)(1)).
                3
                  Devices are classified using types of devices in 21 CFR Parts 862-892.
                4
                  A medical device, as distinguished from a drug, “does not achieve its primary intended
                purposes through chemical action within or on the body of man or other animals and
                which is not dependent upon being metabolized for the achievement of its primary
                intended purposes.” Section 201(h) of the FFDCA (21 U.S.C. § 321(h)).

FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                        1
                Devices and Radiological Health (CDRH) is, in part, responsible for the
                premarket review of devices.5
                The Premarket Approval process. The PMA review is the most stringent
                process for obtaining FDA approval to market a device and is required by
                statute for devices that support or sustain human life, are of substantial
                importance in preventing impairment of human health, or present a
                potential unreasonable risk of illness or injury. 6 For a device to receive
                approval via the PMA process, the device manufacturer (i.e., sponsor)
                must submit sufficient scientific evidence to demonstrate a reasonable
                assurance that it is safe and effective for its intended use.7 Typically, FDA
                requires sponsors to submit results of nonclinical laboratory studies and
                clinical investigations involving human subjects.8
                After a sponsor submits a PMA application, FDA performs a preliminary
                review to determine whether the application is sufficiently complete for
                scientists with subject matter expertise (reviewers) to begin a substantive
                review.9 FDA’s substantive review includes inspections of manufacturing
                facilities, audits of clinical study data, and reviews of safety and
                effectiveness data and patient labeling information.10
                The Premarket Notification process. The 510(k) process is a faster and
                less stringent method for sponsors to obtain FDA clearance to market a
                device, and FDA is required by statute to review specific devices through
                the 510(k) process. For a device to receive clearance via the 510(k)
                process, sponsors do not have to submit scientific evidence demonstrating
                that the device is safe and effective for its intended use, as is required
                under the PMA process. Instead, sponsors must submit information
                demonstrating a device’s substantial equivalence to a device already being
                legally marketed (i.e., the predicate device).11

                5
                  FDA encompasses seven centers. CDRH has primary responsibility for reviewing

                device submissions through the 510(k) process. CDRH reviewed all devices cleared

                through the 510(k) process in 2010. 

                6
                  Sections 515(a) and 513(a)(1)(C) of the FFDCA (21 U.S.C. §§ 360e(a) and 

                360c(a)(1)(C)).

                7
                  Section 515(c) of the FFDCA (21 U.S.C. § 360e(c)) and 21 CFR § 814.20. 

                8
                  21 CFR § 814.20. 

                9
                  21 CFR § 814.42(a). 

                10
                   FDA, Premarket Approval: PMA Review Process, June 8, 2011. Accessed at

                http://www.fda.gov/MedicalDevices/DeviceRegulationandGuidance/HowtoMarketYour

                Device/PremarketSubmissions/PremarketApprovalPMA/ucm047991.htm on 

                August 13, 2012. 

                11
                   “A legally marketed device to which a new device may be compared for a

                determination regarding substantial equivalence is a device that was legally marketed

                prior to May 28, 1976, or a device which has been reclassified from class III to class II or

                class I (the predicate), or a device which has been found to be substantially equivalent

                through the 510(k) premarket notification process.” 21 CFR § 807.92(a)(3). 


FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                          2
                FDA determines that a device is substantially equivalent to a predicate
                device if it has the same intended use and technological characteristics as
                the predicate device. FDA may also determine that a device is
                substantially equivalent to a predicate if it has the same intended use but
                different technological characteristics as the predicate and the information
                submitted to FDA does not raise questions of safety and effectiveness that
                are different from those raised by the predicate device.12, 13
                An FDA scientist with subject matter expertise analyzes data in the
                sponsor’s submissions to determine whether a device is substantially
                equivalent to its predicate device. Once this reviewer reaches a final
                decision, CDRH managers (i.e., the Branch Chief and Division Director)
                review the file, including the reviewer’s final decision. If the managers
                agree with the reviewer’s final decision, FDA sends a letter specifying the
                decision to the sponsor. If the managers disagree with the reviewer’s final
                decision, CDRH may initiate its procedures for resolving scientific
                disputes.14, 15 Of all devices under review through the 510(k) process in
                2010, FDA cleared 71 percent (2,714 of 3,825) of them.16, 17
                Medical Devices, Types of Devices, and Regulatory
                Classification
                Medical devices are categorized into types that generally describe their
                function and characteristics. The device type determines for each what

                12
                   FDA, Medical Devices: Premarket Notification (510k). Accessed at
                http://www.fda.gov/MedicalDevices/DeviceRegulationandGuidance/HowtoMarketYour
                Device/PremarketSubmissions/PremarketNotification510k/default.htm on August 28,
                2012. A device cannot be found substantially equivalent to the predicate device if the
                predicate device has been removed from the market at the initiative of FDA or has been
                determined by a judicial order to be misbranded or adulterated. 21 CFR § 807.100(b).
                13
                   In December 2011, FDA issued new draft guidance on evaluating substantial
                equivalence. FDA, Draft Guidance for Industry and Food and Drug Administration
                Staff, The 510(k) Program: Evaluating Substantial Equivalence in Premarket
                Notifications [510(k)] (12/27/2011). This draft guidance was not in effect during our
                review.
                14
                   FDA, FDA Staff Manual Guides, SMG 9010.1 Volume IV, Agency Program
                Directives, General or Multidiscipline Dispute Resolution, Scientific Dispute Resolution
                at FDA (eff. January 13, 2009); CDRH SOP for Resolution of Internal Differences of
                Opinion in Regulatory Decision-Making (September 4, 2012).
                15
                   CDRH’s policies and procedures for addressing scientific disputes were the subject of
                another OIG evaluation, Scientific Disagreements Regarding Medical Device Regulatory
                Decisions, OEI-01-10-00470, June 2012.
                16
                   The remaining 29 percent of devices were not cleared through the 510(k) process. For
                example, these devices were determined to be not substantially equivalent, had been
                withdrawn by the sponsor, or had been exempted from premarket review. 2010 510(k)
                clearance data provided by CDRH on August 25, 2011.
                17
                   When reporting the number of individual devices cleared by FDA through the 510(k)
                process, we included all 510(k) applications, including, for example, those that may have
                been submitted for clearance for changes to a device already being marketed (i.e., a
                Special 510(k) review).

FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                       3
                           the review process will be (e.g., PMA, 510(k)) or whether the device will
                           be exempt from review. Hereinafter, the term “device” is describes a
                           unique device, and the terms “type of device” and “device type” describe a
                           regulatory category of devices.18
                           FDA classifies devices according to the level of control needed to provide
                           reasonable assurance of the safety and effectiveness of the device (i.e.,
                           Classes I, II, and III). Types of Class III devices include those that support
                           or sustain human life, are of substantial importance in preventing
                           impairment of human health, or present a potential unreasonable risk of
                           illness or injury.19, 20 Generally, Class III devices must be approved via the
                           PMA process.21 Table 1 contains the regulatory class, examples of types
                           of devices in each class, and the premarket review process associated with
                           each class.

Table 1: Medical Device Regulatory Classes, Examples of Types of Devices, and
Premarket Review Process
Class           Examples of Types                                                               Premarket Review Process
                        of Device
I                      Tongue depressors,                Most are exempt from premarket review.* Nonexempt devices must be
                            stethoscopes                       cleared through the 510(k) process rather than the PMA process.
II                              Syringes,               Some are exempt from premarket review.* Nonexempt devices must be
                      electrocardiographs                     cleared through the 510(k) process rather than the PMA process.
III             Implantable pacemakers,               In most cases, premarket approval is required. In limited circumstances,
                     atrial defibrillators          FDA clears Class III devices through the 510(k) process. (FDA’s clearance
                                                      of Class III devices through the less stringent 510(k) process is discussed
                                                                                                                          below.)
     * Manufacturers of exempt devices must register and list the devices with FDA.

     Source: OIG review of FDA Web site, Medical Devices: Device Classification. Accessed at
     http://www.fda.gov/MedicalDevices/DeviceRegulationandGuidance/Overview/ClassifyYourDevice/default.htm on April 27, 2012.




                           18
                              Throughout this report, we state that FDA “uses” Class III preamendment device types
                           to clear devices through the 510(k) process. By this, we mean that a device within a
                           Class III preamendment device type undergoes a 510(k) review.
                           19
                              Section 513(a)(1)(C) (21 U.S.C. § 360c(a)(1)(C)). Class I and Class II devices are
                           defined at sections 513(a)(1)(A) and (B) (21 U.S.C. §§ 360c(a)(1)(A) and (B)),
                           respectively.
                           20
                              Devices with components from more than one type of device are classified at the higher
                           class. FDA, Guidance for Industry and Food and Drug Administration Staff - Medical
                           Device Classification Product Codes (issued on April 11, 2013). Accessed at
                           http://www.fda.gov/MedicalDevices/DeviceRegulationandGuidance/GuidanceDocument
                           s/ucm285317.htm on July 25, 2013.
                           21
                              There are exceptions, such as devices that are substantially equivalent to a
                           preamendment predicate device (21 CFR Part 814, Subpart A); devices that have an
                           approved humanitarian device exemption (21 CFR Part 814, Subpart H); and devices that
                           have an approved investigational device exemption (21 CFR Part 812).

     FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                                            4
                Of the 2,714 devices that FDA cleared through the 510(k) process in 2010:
                        9 percent (241) were Class I,
                        89 percent (2,414) were Class II, and
                        2 percent (59) were Class III.
                Classification of Preamendment Medical Device Types
                Preamendment devices are those that were in commercial distribution
                before May 28, 1976, the date the MDA were signed into law.22 The MDA
                required FDA to classify all types of devices as one of the three
                established regulatory classes (i.e., Class I, II, or III) and to issue
                regulations requiring PMA review for all devices classified as Class III.23
                The MDA authorized FDA to convene classification panels to classify all
                the preamendment device types.24 The law required that FDA, once these
                device types were classified, take a number of steps for every Class III
                preamendment device type, including publishing a notice of proposed
                rulemaking; allowing comments on the proposed rule; providing an
                opportunity to request reclassification of the device type on the basis of
                new information; initiating a proceeding to reclassify the device type; and
                then, if the device type was determined to be Class III, publishing a final
                regulation requiring submission of a PMA application.25
                By the late 1980s, FDA had not finished classifying all Class III
                preamendment device types.26 Until FDA finishes classifying (i.e,
                reclassifying as Class I or Class II or requiring a PMA review) these Class
                III preamendment device types, all devices that relied on predicate devices
                in Class III preamendment device types are required to be reviewed
                through the 510(k) process.27
                In the Safe Medical Devices Act of 1990, Congress mandated that FDA
                before December 1, 1995: (1) require all manufacturers of preamendment

                22
                   FDA uses the term “preamendment device” to describe devices marketed before
                May 28, 1976, and devices substantially equivalent to them that have been marketed
                since May 28, 1976. See, e.g., 59 Fed. Reg. 23731 (May 6, 1994).
                23
                   Section 2 of P.L. 94-295, adding sections 513 and 515 of the FFDCA (21 U.S.C.
                §§ 360c and 360e). 

                24
                   FDA, PMA Historical Background. Accessed at

                http://www.fda.gov/MedicalDevices/DeviceRegulationandGuidance/HowtoMarketYour

                Device/PremarketSubmissions/PremarketApprovalPMA/ucm046769.htm on August 28,

                2012. 

                25
                   Section 2 of P.L. 94-295, adding section 515(b) of the FFDCA (21 U.S.C. § 360e(b)). 

                26
                   Government Accountability Office (GAO) (09-190), p. 11, FDA Should Take Steps to 

                Ensure that High-Risk Device Types are Approved through the Most Stringent Premarket

                Review Process. Issued January 2009. Accessed at 

                http://www.gao.gov/new.items/d09190.pdf on January 4, 2011. 

                27
                   Section 513(f)(1)(A) of the FFDCA (21 U.S.C. § 360c(f)(1)(A)); 21 CFR 

                § 807.92(a)(3).

FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                     5
                devices that were classified as Class III with no PMA requirement to
                submit a summary of information to FDA, including adverse safety or
                effectiveness information, and (2) reexamine the remaining types of Class
                III preamendment devices to determine whether they should be
                reclassified as Class I or II or remain as Class III. If device types
                remained as Class III, FDA was required to establish, within 12 months, a
                schedule for the Class III devices to undergo PMA review.28, 29
                A May 1994 Federal Register notice described FDA’s plan for
                implementing the Safe Medical Devices Act of 1990.30 FDA planned to
                propose regulations to finish classifying all the remaining types of Class
                III preamendment devices. As of 1994, FDA had not finished classifying
                117 Class III preamendment device types.31 Between 1994 and 2009,
                FDA finished classifying 91 of these types.32 However, as of 2009, FDA
                had not finished classifying the remaining 26 types. On April 9, 2009,
                FDA issued a Federal Register notice requiring sponsors to submit
                additional safety information to FDA by August 7, 2009, for 25 types of
                Class III preamendment devices.33 One additional type of Class III
                preamendment device was addressed separately in the Federal Register.34
                On April 9, 2009, FDA began the 515 Program Initiative to finish
                classifying the 26 remaining types of Class III preamendment devices.35, 36

                28
                   Section 4 of P.L. 101-629 (November, 28, 1990), adding section 515(i) of the FFDCA
                (21 U.S.C. § 360e(i)).
                29
                   FDA, PMA Approvals. Accessed at
                http://www.fda.gov/medicaldevices/productsandmedicalprocedures/deviceapprovalsandcl
                earances/pmaapprovals/default.htm on August 28, 2012. Sponsors of Class III
                preamendment devices are not required to submit PMA applications until 30 months after
                the promulgation of a final classification regulation or until 90 days after the publication
                of a final regulation requiring the submission of PMA applications, whichever period is
                later. FDA may allow more than 90 days after the promulgation of a final rule for
                submission of a PMA application. See section 501(f)(2)(B) of the FFDCA (21 U.S.C.
                § 351(f)(2)(B)).
                30
                   59 Fed. Reg. 23731 (May 6, 1994). 

                31
                   GAO (09-190), p. 43, FDA Should Take Steps to Ensure that High-Risk Device Types

                are Approved through the Most Stringent Premarket Review Process. Issued January 

                2009. Accessed at http://www.gao.gov/new.items/d09190.pdf on January 4, 2011. 

                32
                    FDA, 515 Program Initiative. Accessed at

                http://www.fda.gov/AboutFDA/CentersOffices/OfficeofMedicalProductsandTobacco/CD

                RH/CDRHTransparency/ucm240310.htm on August 28, 2012. 

                33
                   74 Fed. Reg. 16214 (April 9, 2009). 

                34
                   76 Fed. Reg. 22805 (April 25, 2011). 

                35
                   FDA, 515 Program Initiative. Accessed at 

                http://www.fda.gov/AboutFDA/CentersOffices/OfficeofMedicalProductsandTobacco/CD

                RH/CDRHTransparency/ucm240310.htm on January 11, 2011. This guidance has been

                revised by FDA to reflect changes made by the Food and Drug Administration Safety and

                Innovation Act (FDASIA), discussed below.

                36
                   The 515 Program Initiative is based on section 515 of the FFDCA (21 U.S.C. § 360e), 

                which requires Class III devices to undergo PMA review to be legally marketed. 


FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                        6
                For types of devices that will remain Class III, FDA will call for PMA
                applications for all devices within the device type.
                The 515 Program Initiative had five steps.
                     	 Step 1: FDA collects existing scientific information (e.g., safety of
                        the devices) in the public domain and/or from scientific experts in
                        the medical community.
                     	 Step 2: FDA assesses the risks and benefits of the types of devices,
                        as well as the clarity of knowledge of the medical device type
                        subject to the reclassification.
                     	 Step 3: FDA issues a proposed rule to classify the type of device
                        into Class I, II, or III.
                     	 Step 4: FDA receives and reviews comments submitted by the
                        public regarding the proposed classification.
                     	 Step 5: FDA issues a final rule, which notifies the public and
                        stakeholders of the classification of the type of device as either
                        Class I, II, or III.
                Once FDA requires PMA review for devices within a Class III
                preamendment device type, all sponsors of those previously cleared
                devices, as well as sponsors of those devices determined to be
                substantially equivalent to a preamendment device in that type, must
                submit PMA applications. For each of these devices, FDA must approve
                the PMA application for the sponsor to continue marketing the device;
                however, if the application is filed in a timely manner, the device may
                continue to be marketed while the application is under review.37 Each
                device type may include hundreds of unique devices, each of which would
                be subject to a PMA review. For example, in the pedicle screw spinal
                system device type, which is one of the remaining 26 Class III
                preamendment device types, FDA cleared 157 individual Class III devices
                between April 9, 2009, and July 9, 2012.
                On July 9, 2012, FDASIA established a new process for finishing the
                classification of types of Class III preamendment devices.38 Before a Class
                III preamendment device type can have a finished classification, FDA will
                now be required to issue an administrative order following publication of a
                proposed order, convene a device classification panel meeting, and
                consider public comments. The statute specifies that the new process
                applies to reclassifying or requiring PMA review for types of Class III

                37
                  Sections 515(b)(1) and 501(f) of the FFDCA (21 U.S.C. §§ 360e(b)(1) and 351(f)).
                38
                  P.L. 112-144, section 608(b), amending section 515(b) of the FFDCA (21 U.S.C.
                § 360e(b)).

FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                      7
                preamendment devices, except those for which final rules had been
                promulgated before the date of enactment, July 9, 2012. FDASIA amends
                the timeframe for FDA to finish classifying all types of Class III
                preamendment devices to July 9, 2014, which is 2 years from the date of
                FDASIA’s enactment.39
                FDA’s Documentation of Medical Device Clearance
                FDA creates an administrative file for each PMA or 510(k) application
                submitted by a sponsor, which includes “all documents pertaining to a
                particular administrative action, including internal working memoranda,
                and recommendations.”40 Further, FDA must include certain
                documentation in the administrative file for “every significant FDA
                decision on any matter under the laws administered by the [FDA]
                Commissioner.”41 Federal regulations state that documentation of the
                significant decision includes “[a]ppropriate documentation of the basis for
                the decision, including relevant evaluations, reviews, memoranda, letters,
                opinions of consultants, minutes of meetings, and other pertinent written
                documents; and [t]he recommendations and decisions of individual
                employees, including supervisory personnel, responsible for handling the
                matter.”42 Further, Federal regulations state that documents that are
                prepared by agency employees but are not in the administrative file have
                “no status or effect” for the purpose of approving or clearing a device.43
                The fact that documents are missing does not necessarily indicate that a
                device was improperly approved or cleared. Finally, Federal regulations
                require that all written documents in the administrative file be signed and
                dated by the author.44
                FDA issued several relevant Standard Operating Procedures (SOPs)
                during or after our review. On July 19, 2010, FDA issued an SOP entitled
                Documentation of Meetings with Sponsors and Applicants.45 On July 1,
                2011, FDA issued Documentation of Informal Conversations and
                Communications Regarding Premarket Submissions.46 As of January
                2012, when we completed data collection for our file review, FDA had not
                defined, beyond the requirements of 21 CFR § 10.70 and these SOPs, the

                39
                   P.L. 112-144, section 608(b)(1)(C), amending section 515(i)(2) of the FFDCA 

                (21 U.S.C. § 360e(i)(2)).

                40
                   21 CFR § 10.3(a). 

                41
                   21 CFR § 10.70(a) and (b). 

                42
                   21 CFR § 10.70(b). 

                43
                   21 CFR § 10.70(d). 

                44
                   21 CFR § 10.70(c)(2).

                45
                   CDRH ODE/OIVD SOP 2010-001: Documentation of Meetings with Sponsors and
                Applicants, Version 1, (effective July 19, 2010). 

                46
                   CDRH ODE/OIVD SOP 2011-001: Documentation of Informal Conversations and 

                Communications Regarding Premarket Submissions, Version 1, (effective July 1, 2011).


FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                   8
                specific documents that must be in administrative files. On September 20,
                2012, FDA implemented the SOP entitled Compiling the Administrative
                File for Premarket Submission Decisions.47 The stated purpose of this
                SOP is “to establish written procedures for creating the Administrative
                File for premarket submission decisions by CDRH review staff.” This
                SOP was not in place during our review period and was not considered in
                developing our methodology.
                According to FDA officials, the administrative files supporting premarket
                submission decisions for medical devices, including files for devices
                undergoing 510(k) reviews, generally are compiled by the reviewer in
                paper format and then uploaded into the agency’s electronic filing system,
                known as IMAGE. The paper documents may be housed in binders until
                they are transferred to IMAGE. Once the paper documents are uploaded
                to IMAGE, they are retained until the paper file is validated against the
                electronic file and FDA confirms that IMAGE contains the full
                administrative file. According to FDA, until this validation is complete,
                CDRH staff can access the paper files, upon request.
                Related Work
                In 2009, GAO issued a report on FDA’s PMA and 510(k) review
                processes.48 GAO analyzed data on PMA and 510(k) submissions for
                fiscal years 2003 through 2007 and analyzed the extent to which FDA
                used the 510(k) process to clear Class III devices. GAO recommended
                that FDA reclassify each remaining Class III device type as Class I or
                Class II or require that it remain in Class III and, for those device types
                remaining in Class III, require approval for marketing through the PMA
                process. The Department of Health and Human Services concurred with
                GAO’s recommendations.

                METHODOLOGY
                Scope
                We determined whether FDA finished classifying the remaining types of
                Class III preamendment devices, determined the number of Class III
                devices cleared through the 510(k) process, and determined the number of
                times Class III preamendment device types were used to clear these
                devices from April 9, 2009, until July 9, 2012. We also determined
                whether documents that we concluded should reasonably be included in

                47
                   CDRH SOP CDRHOCD012: Compiling the Administrative File for Premarket
                Submission Decisions, Version 1.0, (effective September 20, 2012). 

                48
                   GAO (09-190), FDA Should Take Steps to Ensure that High-Risk Device Types are 

                Approved through the Most Stringent Premarket Review Process. Issued January 2009.

                Accessed at http://www.gao.gov/new.items/d09190.pdf on January 4, 2011.


FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                  9
                the administrative file to clear Class III and II devices through the 510(k)
                process in 2010 were present. In October and November 2011, we
                requested that FDA provide us the complete administrative files for 163
                devices cleared through the 510(k) process in 2010. FDA provided files to
                us electronically within 30 days of our request and said that the electronic
                transmission completely fulfilled our data request.
                We did not determine whether FDA’s decisions in 2010 to clear devices
                through the 510(k) process were appropriate.
                Data Collection and Analysis
                Determining whether FDA finished classifying the 26 remaining types of
                Class III preamendment devices, determining the number of Class III
                devices cleared through the 510(k) process, and determining the number
                of times Class III preamendment device types were used to clear these
                devices from April 9, 2009, to July 9, 2012. We analyzed relevant statutes,
                regulations, Federal Register notices, and CDRH responses to survey
                questions. On the basis of these documents, we determined the status of
                the 26 types of Class III preamendment devices in FDA’s 515 Program
                Initiative.
                We obtained the three-digit product codes identified in FDA’s 515
                Program Initiative Project Status table.49 Then, we searched FDA’s 510(k)
                clearance database using these product codes to determine the number of
                times that Class III preamendment device types were used to clear devices
                between April 9, 2009, the date FDA’s 515 Program Initiative began, and
                July 9, 2012, when FDASIA was enacted.50 We then determined the
                number of devices that were cleared using these Class III preamendment
                device types.  
                Determining the extent to which FDA administrative files included
                documents to clear Class III and Class II devices through the 510(k)
                process in 2010. During our review period, FDA had not defined the
                specific documents that must be in administrative files; therefore, we
                based our assessment of what documents we determined should
                reasonably be included in an administrative file on our review of relevant
                Federal regulations, preinspection reviews of 510(k) administrative files,
                and meetings with FDA officials. See Appendix A for the 12 types of
                documents that we determined should reasonably be included in an
                administrative file.

                49
                   FDA’s 515 Program Initiative Project Status table is at
                http://www.fda.gov/AboutFDA/CentersOffices/OfficeofMedicalProductsandTobacco/CD
                RH/CDRHTransparency/ucm240318.htm. Accessed on July 25, 2013.
                50
                   FDA’s online 510(k) clearance database is at
                http://www.accessdata.fda.gov/scripts/cdrh/cfdocs/cfpmn/pmn.cfm.

FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)             10
                We reviewed each electronic file to determine which documents were
                present. We examined each page of all documents in the file. We also
                reviewed the files to see whether all written documents were signed and
                dated. We considered all emails included in the files to be signed and
                dated. We did not determine whether documents submitted by the sponsor
                were signed and dated.51
                We did not determine which of these documents constitute “[a]ppropriate
                documentation of the basis for the decision, including relevant
                evaluations, reviews, memoranda, letters, opinions of consultants, minutes
                of meetings, and other pertinent written documents” as stated in 21 CFR §
                10.70. Rather, we considered all documentation that we found in the files
                or found referenced in the files to be relevant and pertinent.
                We selected a stratified random sample of 163 devices cleared through the
                510(k) process in 2010. We reviewed files for 159 of the devices.52 The
                sample consisted of all 59 Class III devices and a sample of 100 of the
                2,414 Class II devices. Table 2 shows the number of population and
                sample devices by stratum.

                  Table 2: Number of Population and Sample Devices by Stratum

                                                                   Number of Devices
                                                                 Cleared Through the         Sample
                  Stratum                                       510(k) Process in 2010         Size
                  Class II Devices                                               2,414              100
                  Class III Devices                                                 59               59
                  Class II and Class III Devices                                 2,473              159
                Source: OIG Analysis of FDA 510(k) database, 2011.


                Limitations
                We may not have identified all documents missing from the administrative
                files that were relevant and pertinent to the 510(k) review. For example, if
                FDA held a meeting with the sponsor and there was no reference to the
                meeting in the administrative file, we would not be aware that the meeting
                occurred and, therefore, did not report the meeting minutes as missing.



                51
                   We interpreted the requirements at 21 CFR § 10.70(c) to apply only to records
                generated by FDA.
                52
                   FDA provided a list of all devices cleared through the 510(k) process in 2010. We
                requested a sample of 163 files from this list. However, during the file review, we
                discovered that one of the devices was a Class I device (i.e., not within the scope of our
                study). Also, three devices on FDA’s list classified as Class III were actually Class II
                devices. We decided to exclude these four devices from the sample; therefore, we
                reviewed a total of 159 files.

FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                           11
                Further, to the extent that we did not receive all relevant documents, the
                omission may have affected our conclusions as to the consistency and
                completeness of documents maintained in the 510(k) administrative files.
                Standards
                This study was conducted in accordance with the Quality Standards for
                Inspection and Evaluation issued by the Council of the Inspectors General
                on Integrity and Efficiency.




FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)         12
                FINDINGS
                FDA has not finished classifying all types of Class III
                preamendment devices, as required by Congress in
                1990
                When the Safe Medical Devices Act of 1990 was enacted, FDA was
                required to finish classifying the 117 types of Class III preamendment
                devices. Between 1994 and 2009, FDA reclassified types of devices as
                lower classes or retained the Class III classification, thus requiring a PMA
                review for each device within the device type, for 91 of these device types.
                From April 9, 2009, when the 515 Program Initiative began, until July 9,
                2012, when FDASIA amended the process and extended FDA’s deadline,
                FDA finished classifying 7 of the remaining 26 types of Class III
                preamendment devices. During this period, FDA cleared 260 Class III
                devices through the 510(k) process using 12 of the remaining 19 types of
                devices.
                As of July 9, 2012, FDA had not finished classifying 19 types of
                Class III preamendment devices
                From April 9, 2009, when the 515 Program Initiative began, until July 9,
                2012, when FDASIA was enacted, FDA collected existing scientific
                information (e.g., information on the safety of the devices) in the public
                domain and/or from scientific experts in the medical community for all of
                the remaining 26 types of Class III preamendment devices. This was the
                first step of FDA’s five-step 515 Program Initiative. During this time,
                FDA also assessed the risks and benefits of each of the remaining 26 types
                of preamendment devices, completing step 2 of the 515 Program Initiative.
                FDA issued rules proposing classification for 13 device types and had
                received and reviewed comments for 11 device types, completing steps 3
                and 4 of the 515 Program Initiative. As of July 9, 2012, FDA issued a rule
                finishing the classifications for seven types of devices.
                Of these seven types of Class III preamendment devices, six remained
                Class III devices and all devices in that type will now be required to
                undergo PMA review. The remaining type of Class III preamendment
                device was reclassified as Class II. As a result, new devices within this
                type can continue to be cleared through the 510(k) process.
                Table 3 shows the step in the 515 Program Initiative that was completed
                and the number of types of devices in each step from April 9, 2009, until
                July 9, 2012.




FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)             13
                  Table 3: Completed Steps in the FDA 515 Program Initiative and
                  Number of Types of Devices per Step, April 9, 2009 – July 9, 2012
                                                               Number of Types of
                  FDA 515 Program Step Completed                            Devices
                  Step 1 – Collect existing scientific data                          26
                  Step 2 – Assess device risk and benefits                           26
                  Step 3 – Issue proposed rule                                       13
                  Step 4 – Receive and review public comments                        11
                  Step 5 – Issue final rule                                           7
                Source: OIG analysis of FDA 515 Program Initiative status, 2013.


                See Appendix B for the type of device, number of times Class III
                preamendment device types were used to clear Class III devices from
                April 9, 2009 to July 9, 2012, and 515 Program Initiative steps completed
                as of July 9, 2012.
                FDA staff cited barriers to issuing proposed and final rules as the reason
                for the 21-year delay in finishing classifying all preamendment device
                types. For example, under the 515 Program Initiative, FDA cited the time
                to convene classification panels, the time to complete the rulemaking
                process, and disagreement on the part of industry and advocates about the
                best classification for these types of Class III preamendment devices. FDA
                informed us that as of February 17, 2012, it expected to recommend that at
                least 10 of the 22 remaining types of Class III preamendment devices
                remain Class III.
                On July 9, 2012, FDASIA established a new process for reclassifying
                devices. Before types of Class III preamendment devices can have a
                finished classification, FDA is now required to issue an administrative
                order following publication of a proposed order, convene a device
                classification panel meeting, and consider public comments. The statute
                specifies that the new process applies to reclassifying or requiring a PMA
                review for types of Class III preamendment devices, except those for
                which final rules had been promulgated before the date of enactment, July
                9, 2012. The long-term effect of this process change has yet to be
                determined, but FDA has informed us that implementing it has further
                delayed progress.

                From April 9, 2009, to July 9, 2012, FDA cleared 263 Class III
                devices through the 510(k) process
                From April 9, 2009, to July 9, 2012, FDA cleared 263 devices through the
                510(k) process that were determined to be substantially equivalent to Class
                III preamendment devices in the 515 Program Initiative. Of those devices,


FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)           14
                FDA cleared 260 devices using 12 types of Class III preamendment
                devices that have not completed the 515 Program Initiative.53
                Three devices were cleared using one type of device that has completed
                the 515 Program Initiative.54 Devices within the remaining 13 types of
                devices were not used as predicates to clear any new devices through the
                510(k) process from April 9, 2009, to July 9, 2012. Twenty-one of the
                devices cleared through the 510(k) process during our review period used
                more than one Class III preamendment device type. Thus, Class III
                preamendment device types were used 284 times to clear 263 individual
                devices during our review period. See Appendix B for the 26 types of
                Class III preamendment devices in the 515 Program Initiative, the number
                of times each device type was used to clear each of the individual 263
                devices from April 9, 2009, to July 9, 2012, and the 515 Program Initiative
                steps completed for each type of device.

                FDA did not consistently document the review of
                devices cleared through the 510(k) process in 2010
                Most of the files for Class III and Class II devices cleared through the
                510(k) process in 2010 contained most of the documents that we
                concluded should reasonably be included in the administrative files.
                However, most of the electronic files we reviewed were missing at least
                one document. Missing documents included reviewers’ notes,
                memorandums describing the basis for FDA’s clearance, and minutes of
                meetings between FDA reviewers and device sponsors. Further, many
                documents in the files were not signed and dated.
                After we finished our review of FDA’s files and during FDA’s review of a
                preliminary draft of the report, FDA informed us that not all documents
                had been loaded into IMAGE at the time we requested our data.
                Therefore, FDA had not provided us with the complete administrative files
                we requested. FDA explained that we had been given documents in the
                electronic files but not paper documents and that some of the electronic
                files we received had not been validated as complete. To the extent that
                not all relevant documents were provided to us, the omission may have
                affected our conclusions as to the consistency and completeness of
                documents maintained in the 510(k) administrative files. Our review of

                53
                   For 9 of these 12 types of devices, FDA had completed Step 2 of the five-step 515
                Program Initiative. For 3 of these 12 types of devices, FDA had completed Step 3 of the
                515 Program Initiative.
                54
                   After the clearance of these three devices, FDA reclassified the type of device as Class
                II, so all devices in this type will continue to be cleared through the 510(k) process; this
                explains why only 260 of the 263 Class III devices were cleared using Class III
                preamendment device types that FDA has still not finished classifying.

FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                          15
                files FDA submitted electronically and FDA’s initial indication that it had
                provided complete information to us did not alert us to the fact that
                additional paper records may have existed.
                Our review of the electronic files showed that FDA did not consistently
                document the review of devices cleared through the 510(k) process in
                2010. As FDA recently stated, “[C]omprehensive and accurate
                documentation of the deliberative process is essential to subsequent
                reviewers and supervisors that assume responsibility for the premarket
                review. Such documentation also ensures that a rational basis exists for
                agency decisions and promotes transparency and accountability in
                decision-making.”55 FDA also noted the need for procedures “to enable
                CDRH review staff and managers to appropriately and systematically
                document the facts, data, science, and deliberative process concerning
                premarket decisions.”56 Our review also revealed vulnerabilities in FDA’s
                management of its administrative files. An adequate process for
                maintaining administrative files requires transparency regarding the
                location of documents and the completeness of the files. The lack of such
                a process could lead to confusion and human error.




                55
                   CDRH SOP CDRHOCD012: Compiling the Administrative File for Premarket 

                Submission Decisions, Version 1.0, (effective September 20, 2012). 

                56
                   Ibid. 


FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)             16
                CONCLUSION AND RECOMMENDATIONS
                The 510(k) process is a faster and less-stringent method to obtain FDA
                clearance to market a medical device than the PMA process. For example,
                in the 510(k) process, sponsors must show that a device is substantially
                equivalent to a predicate device. The PMA process requires that sponsors
                demonstrate a reasonable assurance of safety and effectiveness for a
                device’s intended use through the submission of sufficient scientific
                evidence. Predicate devices used to establish substantial equivalence in
                the 510(k) process include Class III preamendment devices. For these
                Class III preamendment device types, FDA must either reclassify them as
                a lower class or require that they remain Class III and call for a PMA
                review. In recent years, the media and consumer groups have criticized
                FDA’s continued use of the 510(k) process to clear Class III devices.
                FDA has not finished classifying all types of Class III preamendment
                devices, as required by Congress in 1990 and as currently required by
                FDASIA. As a result, Class III devices continue to be cleared through the
                510(k) process. Although FDA has not finished classifying these Class III
                preamendment device types, some of them may be reclassified as Class II,
                and devices can continue to be cleared through the 510(k) process with no
                change to the review process. For example, one of the seven device types
                that FDA finished classifying during the 515 Program Initiative was
                reclassified as Class II. However, FDA determined that six of the seven
                device types will remain Class III device types, and all previously cleared
                and new devices in that type will undergo PMA review and be required to
                demonstrate a reasonable assurance of safety and effectiveness.
                With the enactment of FDASIA in 2012, Congress repeated its 1990
                directive to finish classifying all Class III preamendment device types but
                changed the classification process by which these device types must be
                reviewed. FDA should finish classifying all Class III preamendment
                device types as quickly as possible and no later than July 9, 2014,
                consistent with FDASIA. This will promote public health by requiring
                devices already on the market in those Class III device types to receive the
                more stringent PMA review to reasonably ensure they are safe and
                effective for their intended use.
                Additionally, we found that FDA did not consistently document the review
                of devices cleared through the 510(k) process in 2010, according to our
                review of the files provided electronically by FDA. Further, FDA did not
                provide complete administrative files during our data collection, thereby
                demonstrating deficiencies in its filing system. We recommend that FDA:




FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)          17
                In accordance with the law, finish classifying the remaining 19
                types of Class III preamendment devices that include devices
                still used as predicates in the 510(k) process
                Starting with the highest risk device types, which include devices that are
                used most frequently as predicates to clear Class III devices, FDA should
                complete the classification process for all types of Class III preamendment
                devices as soon as possible but no later than July 9, 2014, the deadline
                established in FDASIA.
                Improve its maintenance of administrative files for devices and
                continue to implement new policies on how to compile an
                administrative file
                FDA should examine its maintenance of administrative files for all cleared
                devices. FDA should keep all paper documents in a central location and
                scan them expeditiously to the electronic file. The FDA administrative file
                should be maintained such that anyone legitimately consulting the file—
                even those outside CDRH—can easily ascertain whether the file is
                complete or additional documents exist elsewhere.
                FDA should also continue to implement its new SOP on how to compile
                the administrative file for decisions on 510(k) device submissions. This
                policy could include standard review templates. FDA should also require
                reviewer training that describes how to document the 510(k)
                administrative files.




FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)         18
                AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                RESPONSE
                In its comments on the draft report, FDA agreed with both of our
                recommendations. FDA agreed with the first recommendation to, in
                accordance with the law, finish classifying the remaining 19 types of Class
                III preamendment devices that include devices still used as predicates in
                the 510(k) process. FDA stated that it is taking steps to modify its
                procedure to comply with the new law. Further, FDA indicated it has
                made significant progress toward completing the classification of the
                remaining types of Class III preamendment devices. For example, for 69
                percent of the Class III preamendment device types that remained when
                the 515 Program Initiative began in 2009, FDA indicated that it has issued
                proposed orders or finished classifying the device types through the
                rulemaking process as of June 1, 2013.
                FDA also agreed with the second recommendation to improve its
                maintenance of administrative files for devices and continue to implement
                new policies on how to compile an administrative file. FDA indicated it
                has significantly improved its policies on how to compile an
                administrative file. For example, CDRH finalized and implemented an
                SOP to establish written procedures for creating the administrative file.
                FDA has also implemented technological changes that have facilitated the
                introduction of a standard review template.
                FDA questioned the relevance of our finding that FDA did not consistently
                document the review of devices cleared through the 510(k) process in
                2010, according to our review of the electronic files provided to us. FDA
                believes that we included in our review some documents that are not
                required by regulation or SOP to be in the administrative file and cites two
                documents specifically. On the basis of our inclusion of these particular
                documents, FDA questions the relevance of our finding. At the time of
                our review, we did not have the benefit of FDA’s SOP (which had not yet
                been issued). FDA did not specifically require these two documents, or
                any other particular documents, to be in the administrative file. Further,
                most of the files in our review did contain the two specific documents that
                FDA cited. Therefore, the inclusion of these two documents, in particular,
                had minimal effect on our findings.
                FDA also provided technical comments. In response, we made revisions
                to the report, where appropriate. For the full text of FDA’s comments, see
                Appendix C.




FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)          19
                APPENDIX A
                Documents That the Office of Inspector General Determined
                Should Reasonably Be Included in the Administrative Files for
                Devices Cleared Through the 510(k) Process

                On the basis of our review of relevant statutes and regulations, our
                preinspection review of 10 administrative files, and input from Food and
                Drug Administration officials during preinspection, we identified
                documents that we determined reasonably should be included in the file to
                clear the device through the 510(k) process. We grouped the documents
                in this manner on the basis of the organization of administrative files and
                for the purposes of reporting our results. FDA does not formally group the
                documents in this manner.57

                A. Documentation of the reviewer’s analysis:

                     1.	 Reviewer Cover Sheet,
                     2.	 Reviewer Memorandum, and
                     3.	 Reviewer Decision Flowchart.58, 59
                B. All minutes of meetings and correspondence with sponsors and
                   records of consultations with FDA staff:
                     4.	 the contents of all phone calls, emails, or other meetings between
                         FDA reviewers and the sponsor; and




                57
                   The focus of this review is documents that support the analysis of FDA reviewers.
                Supervisor decisions and recommendations, as referenced in 21 CFR § 10.70(b)(2), may
                be included in group 1 or 2, depending on whether they are contained in written Reviewer
                Memorandums or if they were expressed in meetings or correspondence. The FDA’s
                official Clearance Letter is included in group 3.
                58
                   The Reviewer Cover Sheet documents the reviewer’s analysis of the device through the
                510(k) process. The Reviewer Memorandum contains the reviewer’s final summary of
                the deficiencies identified, additional information submitted by the sponsor to address the
                deficiencies, and the reviewer’s conclusion about whether the additional information
                addresses the deficiencies. The Reviewer Decision Flowchart documents the logic used
                to clear the device through the 510(k) process.
                59
                   At the time of our review, FDA did not specifically require the Reviewer Decision
                Flowchart, the Medical Device User Fee Form, or any other documents to be in the
                administrative file. However, most of the files in our review did contain the Reviewer
                Decision Flowchart and the Medical Device User Fee Form.

FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                        20
                     5.	 the contents of all internal FDA discussions or consultations, or
                         emails regarding device clearance.60, 61
                C. Other standard documents pertinent to the decision to clear the device:
                     6.	 letter from FDA to the sponsor clearing the device through the
                         510(k) process (i.e., the FDA Clearance Letter);
                     7.	 letter from FDA to the sponsor acknowledging that FDA received
                         the original 510(k) submission (i.e., the FDA Acknowledgement
                         Letter);
                     8.	 letter(s) from FDA to the sponsor confirming FDA’s receipt of
                         additional information the sponsor submitted (i.e., Additional
                         Information Confirmation letter);
                     9.	 Medical Device User Fee Form;62
                     10. additional information submitted by the sponsor in response to the
                         reviewer’s request;
                     11. the original 510(k) submission from the sponsor; and
                     12. the 510(k) Summary.63




                60
                   We manually reviewed each administrative file to determine whether all minutes of
                meetings and correspondence with sponsors and records of consultations with FDA staff
                were present. If documents in the administrative file contained a sufficient level of detail,
                attendees, and dates of meetings, we considered these to be minutes and records.
                61
                   Opinions of consultants, as referenced in 21 CFR § 10.70, may be included in group 1
                or 2, depending on whether they are contained in written Reviewer Memorandums or
                whether they were expressed in meetings or correspondence.
                62
                   The Medical Device User Fee Form documents that the sponsor paid the user fee, if
                required, to FDA for the 510(k) submission.

                63
                   The 510(k) Summary provides basic information about the device and the sponsor.

                The 510(k) Summary is posted on FDA’s public Web site after a device is cleared. 


FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                          21
APPENDIX B 

 Type of Class III Preamendment Device, Number of Times Each Class III Preamendment Device Type Was Used To Clear 263 Unique Devices
 Through the 510(k) Process From April 9, 2009, Through July 9, 2012, and 515 Program Initiative Steps Completed as of July 9, 2012
                                                        Times Device Type
                                                        Used to Clear
                                                        Devices through the Step 1          Step 2       Step 3       Step 4        Step 5
 Type of Class III Device                               510(k) Process         Complete     Complete     Complete     Complete      Complete
 Pedicle screw spinal system                            157                               
 Hip joint metal/metal semiconstrained, with an
 uncemented acetabular component, prosthesis            27                                
 Automated external defibrillator                       24                                
 Implanted blood access device                          20                                           
 Hip joint metal/metal semiconstrained, with cemented
 acetabular component, prosthesis                       16                                
 Nonroller-type cardiopulmonary bypass blood pump       15                                
 External cardiac compressor                            10                                
 Intra-aortic balloon and control system                4                                 
 Shortwave diathermy                                    3                                            
 Iontophoresis device                                   3                                 
 External counter-pulsating device                      1                                 
 Cranial electrotherapy stimulator                      1                                                       
 Electroconvulsive therapy device                       0                                 
 Endosseous dental implant (blade-form dental implants) 0                                 
 Membrane lung for long-term pulmonary support (i.e.,
 ECMO)                                                  0                                 
 Mandibular condyle prosthesis                          0                                 
 Transilluminator for breast evaluation                 0                                                       
 External pacemaker pulse generator                     0                                                       
 Sorbent hemoperfusion system                           0                                                       
 Topical oxygen                                         3                                                                   
 Female condom                                          0                                                                   
 Implantable pacemaker pulse generator                  0                                                                   
 Pacemaker programmers                                  0                                                                   
 Pacemaker repair or replacement material               0                                                                   
 Cardiovascular permanent pacemaker electrode           0                                                                   
 Ventricular bypass device                              0                                                                   
 TOTAL                                                  284*                   26           26           13           11            7
Source: OIG analysis of FDA 515 Program Initiative status and FDA 510(k) online clearance database, 2013. 

Class III preamendment device types were used 284 times to clear 263 individual devices from April 9, 2009, through July 9, 2012





FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                                                     22
    APPENDIXC

    Agency Comments

       .;;""'"'""'·"'
      f   _#DEPARTMENT OF HEALTH AND HUMAN SERVICES

       \.:~~
                                                                                                  Food and Drug Administration
                                                                                                  S1lver Spring MD 209 93




                        Date:         June 21,2013

                        To:           Inspector General

                        From:         Acting Associate Commissioner for Policy and Planning

                        Subject:      FDA's General Comment to OIG Dmft Report on FDA's Clearance of Medical
                                      Devices Through the 51 O(k) Process

                        FDA is providing the attached general comments to the Office oflnspector General's draft report
                        entitled, FDA 's Clearance ofMedical Devicp Through the 51 O(k) Process (OEI-04-1 Oc00480).

                        FDA appreciates the opportunity to review and comment on this draft report before it is
                        published .

                                                                             /S/
                                                                    Peter Lurie, MlY,tiPH


                        Attachment




FDA's Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)                                                  23
FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)   24
FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)   25
FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)   26
                ACKNOWLEDGMENTS
                This report was prepared under the direction of Dwayne Grant, Regional
                Inspector General for Evaluation and Inspections in the Atlanta regional
                office, and Jaime Durley, Deputy Regional Inspector General.
                Janna Sayer served as the lead analyst for this study. Other principal
                Office of Evaluation and Inspections staff from the Atlanta regional office
                who contributed to the report include Starr Kidda and Sarah Langford;
                central office staff who contributed include Kevin Farber and Talisha
                Searcy.




FDA’s Clearance of Medical Devices Through the 510(k) Process (OEI-04-10-00480)         27
                   Office of Inspector General
                                       http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
